CommunityAmerica Credit Union
PO Box 15950
Lenexa, KS 66285-5950
800.892.7957
CACU.com

IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card are accurate as of 01/21/16 .
You can contact us toll free at 800.892.7957 or the address above to inquire if any changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:

Annual Percentage Rate (APR) for
Purchases & Balance Transfers

APR for Cash Advances

Paying Interest

CommunityAmerica
Visa Platinum

CommunityAmerica
Visa Platinum Cash Back

CommunityAmerica
Visa Platinum Rewards

10.49%, 12.49%,
16.49%, 21.49%,
or 22.49%

13.49%, 15.49% or
20.49%

12.49%, 14.49% or
19.49%

depending on your credit history.
This APR will vary with the
market based on the Prime Rate.

depending on your credit history.
This APR will vary with the
market based on the Prime Rate.

depending on your credit history.
This APR will vary with the market
based on the Prime Rate.

10.49%, 12.49%, 16.49%,
13.49%, 15.49% or 20.49%
12.49%, 14.49% or 19.49%
21.49%, or 22.49%
depending on your credit history. depending on your credit history. depending on your credit history.
This APR will vary with the
This APR will vary with the market
This APR will vary with the
market based on the Prime Rate. market based on the Prime Rate. based on the Prime Rate.
Your due date is at least 21 days after we mail your billing statement. We will not charge you interest on
purchases if you pay your entire new purchase balance by the due date each month. We will begin
charging interest on cash advances and balance transfers on the date the cash advance or balance
transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your Account
- Annual Fee:
- Application Fee:
Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:
Penalty Fees
- Late Payment:
- Over-the-Credit Limit:
- Returned Payment:

None
None
3% of the amount of each transfer or $5.00, whichever is greater (maximum: $75.00)
3% of the amount of each cash advance or $5.00, whichever is greater (maximum: $75.00)
1% of each transaction in U.S. dollars
1% of each transaction made in currencies other than U.S. dollars
up to $35.00
None
None

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."

9009 LASER ML FPDF FI16599 Rev 11-2015

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

